2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

OCKLE

CAL i Briefs

Est. 1923

Cc E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

No, 21-17

DAVID HARGREAVES,
Petitioner,
v.

NUVERRA ENVIRONMENTAL SOLUTIONS, et al.,

Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF OF
PETITIONER IN SUPPORT OF A WRIT OF CERTIORARI in the above entitled case complies

with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century

Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 2876 words,

excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 14th day of September, 2021.
Lam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
RENEE fe mace @oss
My Comm. Exp. September 5, 2023,

freemen | Acre. 0. Besa Onduaeb Ohl

 

Notary Public Affiant

41295
